August 2, 2001
Audit Report No. 01- 018


Audit of Selected Training and Consulting Services Branch
Contracts
Federal Deposit Insurance Corporation                                                             Office of Audits
Washington, D.C. 20434                                                                Office of Inspector General


  DATE:           August 2, 2001

  TO:	            Arleas Upton Kea, Director
                  Division of Administration



  FROM:	          Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                  Assistant Inspector General

  SUBJECT:	       Report Entitled Audit of Selected Training and Consulting Services Branch
                  Contracts (Audit Report No. 01-018)

  This report presents the results of an audit of the Federal Deposit Insurance Corporation’s (FDIC)
  process for awarding Training and Consulting Services Branch (TCSB) contracts. The FDIC Strategic
  Plan identifies as an operating principle that “Corporate resources are managed effectively to enable the
  Corporation to fulfill its mission.” To achieve this operating principle, the Division of Administration’s
  (DOA) mission is to “provide quality and timely human resources, organizational, and administrative
  services to support the Corporation in fulfilling its mission,” with a corresponding goal to ensure “FDIC’s
  workforce is professional, efficient and highly skilled.”
  As part of the DOA, the primary purpose of TCSB is to develop and maintain a highly skilled workforce
  equipped to meet the present and future challenges facing the FDIC. TCSB develops and delivers
  training and provides consulting services with the goal of achieving business results by improving
  individual and organizational performance. TCSB also develops strategies for achieving organizational
  change and evaluates the quality and impact of training. The Office of Inspector General’s (OIG) audit
  was included in our calendar year 2000 Audit Plan.

  The OIG has not previously performed a similar audit of TCSB operations. However, at the request of
  the FDIC’s Chief Financial Officer and Director, DOA, the OIG’s Office of Congressional Relations
  and Evaluations Branch (OCRE) and the FDIC’s Office of Internal Control Management (OICM)
  recently completed a joint study on training and personnel administrative services. The study examined
  administrative services functions throughout the Corporation to assist FDIC management in its effort to
  improve operational efficiencies and reduce costs. On March 1, 2001, OCRE and OICM issued a joint
  report on the results of the study entitled, Study of Administrative Services – Training and
  Personnel. The report identified a number of suggestions related to TCSB operations. In particular,
  one suggestion was that TCSB study the Division of Resolutions and Receiverships’ (DRR) core
  curriculum project to determine whether computer-based instruction could be utilized to deliver training
  more efficiently to other divisions. This particular suggestion also relates to work performed during our
  audit and is discussed in more detail in the report section entitled “Other Opportunities for
  Improvement.”
BACKGROUND

To meet its primary purpose of developing and delivering training and consulting services, TCSB
primarily relies on three sources of training vendors. These sources include vendors identified and
approved for use by (1) the Office of Personnel Management (OPM), (2) the General Services
Administration (GSA), and (3) vendors identified and contracted with directly by the FDIC. By utilizing
multiple training sources, the FDIC increases the variety of courses available for employees and the
efficiency of awarding and administering contracts.

Specifically, the FDIC awards training and consulting services contracts to OPM using interagency
agreements, in which case OPM acts as the FDIC’s contracting agent. In the case with GSA, the FDIC
awards and administers contracts to vendors identified on the GSA Federal Supply Schedule. In
addition, in many instances the FDIC elects to directly contract with training and consulting vendors using
competitive procurement procedures outlined in the FDIC Acquisition Policy Manual (APM). In such
cases, TCSB prepares a Requirements Package (RP) that specifies the training and consulting services
required. DOA’s Acquisition and Corporate Services Branch (ACSB) then issues the Request for
Proposal (RFP) to solicit proposals from prospective vendors, awards the contracts following a technical
and price evaluation of the proposals by TCSB and ACSB, and performs contract administration.
ACSB’s performance goal is to award 80 percent of all contracting requirements within a specified
number of calendar days (depending on the dollar amount of the contract) after receipt of a completed
RP. For contracts over $100,000, ACSB’s performance goal is 120 calendar days.

During the period January 1, 1999 through December 5, 2000, the FDIC awarded 119 TCSB contracts
and modifications totaling $18,956,714. The FDIC awarded 21 contracts using interagency agreements
to OPM totaling $9,498,781, 28 contracts totaling $2,851,727 using the GSA Federal Supply
Schedule, and 62 contracts totaling $6,252,331 directly with training and consulting services vendors
identified by the FDIC. In addition, the FDIC awarded eight TCSB contracts totaling $353,875 using
interagency agreements with other government agencies including the National Archives and Records
Administration, National Finance Center, USDA Graduate School, and the Treasury Executive Institute.

Generally, the FDIC training and consulting services contracts using OPM or the GSA Federal Supply
Schedule are awarded more quickly than the contracts that the FDIC awards directly with training and
consulting services vendors. The primary reason is that OPM and GSA have established contracts with
a variety of training and consulting vendors, thereby saving the FDIC time in identifying and evaluating
prospective training and consulting vendors. Therefore, the focus of our audit was on evaluating and
identifying opportunities to improve the FDIC’s timeliness for awarding non-OPM and non-GSA training
and consulting services contracts.


OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine whether TCSB contracts were awarded in a timely manner

and whether the resultant services met customers’ needs. We reviewed only those contracts that the

FDIC awarded directly to training and consulting vendors. The scope of the audit included training and

consulting services contracts awarded from January 1, 1999 through December 5, 2000.

During this period, the FDIC awarded 62 contracts and modifications totaling $6,252,331 for training

and consulting services. 

                                                    2

We judgmentally selected 6 contracts totaling $3,936,305 of the 13 contracts over $100,000 for review
from the FDIC’s Procurement Actions Log (PAL). The 13 contracts over $100,000 totaled
$5,580,697. PAL is a management system used by ACSB to track RPs through the Acquisition
Section. We selected contracts that, generally, took the longest period of time to award to determine
whether opportunities existed to improve the timeliness of award. Specifically, ACSB awarded the six
contracts between 91 and 133 calendar days (5 of which met ACSB’s 120-day performance goal)
following receipt of a completed RP.

We performed analyses at each stage of the contract award process, with an emphasis on the period
between the initial submission of a RP and the issuance of the RFP. At a minimum, the RP consists of a
detailed Statement of Work (SOW), price estimate, and approved expenditure authority. We reviewed
ACSB’s official contract files, contract milestone schedules, the selection recommendation report, and e-
mails to verify the accuracy of the dates shown in the PAL report. We determined whether individuals
preparing the SOWs had taken recommended training in SOW preparation and had experience in the
type of training and consulting services being procured.

We reviewed TCSB training files and course attendance rosters to determine whether TCSB Oversight
Managers (OM) and Technical Monitors (TM) had taken the required OM training and refresher
courses. We also reviewed pertinent FDIC policies, procedures, and directives including the FDIC’s
APM and ACSB’s PAL User Manual to ensure applicable policies were followed. Throughout our
review, we interviewed TCSB and ACSB staff, as appropriate, to gain a better understanding of the
process used to prepare, track, and award TCSB contracts. We also interviewed OMs and reviewed
summary feedback ratings from course participants to determine whether the resultant services from the
selected contracts met customers’ needs.

Finally, we met with officials from OPM and GSA to discuss their respective practices for procuring
training and consulting services and identify practices that the FDIC could possibly adopt. We also met
with the Department of Transportation (DOT) to discuss products and services available under the
Transportation Virtual University to determine whether a similar program could be adopted by the
FDIC.

We conducted our audit between July 2000 and March 2001 in accordance with generally accepted
government auditing standards. In planning and performing our audit, we obtained an understanding of
the management controls and procedures related to awarding and tracking TCSB contracts as a basis
for making recommendations to improve the overall process. However, because our detailed tests were
limited to six TCSB contracts, we are not expressing an overall opinion on the adequacy of ACSB
procurement procedures or the PAL system.




                                                   3

RESULTS OF AUDIT

The six TCSB contracts we reviewed met the needs of customers. Specifically, the respective TCSB
OMs and program office officials told us that they were satisfied with the services provided by the
vendors. In addition, our review of selected training course participant feedback forms indicated overall
satisfaction with the training.

Nonetheless, the FDIC can take initiatives to improve the timeliness and tracking of TCSB contracts
awarded over $100,000 using competitive contracting procedures. Generally, the TCSB Requirements
Packages (RP) associated with the six contracts we reviewed required revisions to address ACSB
comments that, overall, lengthened the time required to finalize and issue the RFP. These revisions
included consistency issues, the adequacy of pricing schedules, editorial changes, and SOW formatting
and specificity requirements. TCSB has already taken actions that should correct the SOW formatting
weaknesses. To further improve the SOWs, we are recommending that TCSB OMs and TMs
responsible for preparing SOWs attend the FDIC’s 1-day training course entitled Statement of Work
Preparation.

We also determined that ACSB personnel were not consistently following procedures for entering
completion dates into PAL related to the tracking of significant contracting phases for the six contracts.
As a result, the usefulness of PAL information was reduced, which is important since ACSB uses PAL
to track the processing of RPs. Therefore, we are recommending that ACSB personnel be reminded to
follow procedures for entering into PAL accurate, complete, and current dates.

Finally, although we concluded that TCSB training contracts satisfied customer needs, we met with
officials from other government agencies to identify contracting practices and training services that the
FDIC should consider to further improve the timeliness of TCSB contract awards and the delivery of
training services to customers. As a result of this work, we identified two suggestions related to TCSB
using a basic ordering agreement to award training contracts and utilizing DOT’s Transportation Virtual
University to expand training options. These suggestions are described in more detail in the report
section entitled “Other Opportunities for Improvement.”


FDIC CAN IMPROVE THE TIMELINESS OF AWARDING TCSB CONTRACTS OVER
$100,000

FDIC can improve the timeliness of awarding TCSB contracts over $100,000 that use the FDIC’s
competitive contracting procedures. Specifically, the six contracts we reviewed were awarded, on
average, 155 days following the initial submission of the RP by TCSB to ACSB. The 155 days
consisted of 61 days to finalize TCSB’s initial RP and issue the RFP, and 94 days to receive and
evaluate proposals and award the contracts.

Based on interviews with the respective contract specialists, OMs, and TMs for each contract and
reviews of documentation in the contract files, we concluded that, overall, the 94 days taken to receive
and evaluate proposals and award the contracts was reasonable. However, the 61 days to finalize
TCSB’s initial RPs and issue the RFPs could have been reduced and, therefore, improved the overall
timeliness of the six contracts awarded. Table 1 summarizes each of the six contracts reviewed and the
associated days taken to issue the RFP following TCSB’s initial RP submission.
                                                    4

Table 1: Days Between Initial Submission of RP by TCSB to ACSB and RFP Issuance

                                                                       Days Between RP Received
  Contract Number                        Contract Description                to RFP Issued


   99-00879-C-CJ             Technical Writing/Editing for TCSB                       66

   00-00027-C-CJ             Capital Markets Training for DOS                         79

   99-00904-C-RJ             Professional Video Services for FDIC                     86
                             Development of a Master
   99-00506-C-J4             CD-ROM for DCA                                           44
                             Electronic Banking Training for DOS
   99-00647-C-K1                                                                      56
                             Effective Writing for Bank
   00-00272-C-J4             Examiners School – DOS                                   34

      Total Days                                                                      365

    Average Days                                                                      61

Source: OIG analysis of contract file documentation.

We determined that TCSB RPs required revisions to address ACSB comments that, overall, lengthened
the time required to finalize and issue the RFP. These revisions included consistency issues, the
adequacy of pricing schedules, editorial changes, and SOW formatting and specificity requirements.

TCSB has taken action to correct the SOW formatting weaknesses. In June 2000, TCSB formed a
Contract Team with the goal of developing consistent SOW language for training analysis, design,
development, delivery, and evaluation. The TCSB Contract Team and ACSB prepared four SOW
templates that will be downloaded on TCSB’s shared drive and Web page. The OM will be able to
select the template that relates to the training that is needed and use it as a guide for preparing the
SOW. The templates should eliminate any formatting weaknesses that have contributed to delays in
finalizing the SOW. The Contract Team’s recommendations were formally approved by TCSB’s
Associate Director on February 14, 2001.

However, to further improve the quality of SOWs, we believe that OMs and TMs responsible for the
preparation of SOWs should attend the FDIC 1-day Statement of Work Preparation course. We
determined that only two of the six OMs who prepared the SOWs had attended the SOW Preparation
course before initiating work on the SOW. In one additional instance, the OM attended the SOW
Preparation course approximately 2 months after initiating work on the SOW. The two OMs who
attended the SOW Preparation course had RFPs that were issued 34 and 44 days after submission of
the initial RP to ACSB. Conversely, the four OMs who did not attend the SOW Preparation Course
(including the OM who attended the course approximately 2 months after initiating work on the SOW)

                                                          5

had RFPs that were issued 56, 66, 79, and 86 days after submission of the initial RP to ACSB.

Further, the OM whose RFP was not issued until 86 days after submission of the initial RP lacked
familiarity with the subject area covered by the proposed contract. Specifically, TCSB determined a
need to award a contract for video services and assigned the responsibility of preparing the RP to an
OM who had no experience in this area. TCSB told us that this situation was an isolated case because
TCSB usually assigns SOW preparation to an individual who already possesses some knowledge in the
area covered by the requested service. However, in this instance, TCSB assigned the SOW
preparation to the OM as a developmental opportunity to learn about video services.

Although TSCB correctly indicated that the SOW Preparation course was not a requirement for the
OMs who prepared the SOWs, the FDIC recommends the course for all personnel who will be
involved in defining contractor needs, securing contractors, and evaluating contractor performance. The
course provides employees with the knowledge, skills, and ability they need to develop an SOW that
will help them to select the most qualified contractors and evaluate their performance.

Based on a review of FDIC training course rosters for headquarters and regional offices, we determined
that only 32 of 69 TCSB designated OMs and TMs who could be assigned the task of preparing an
SOW had attended the SOW Preparation course. We believe that if OMs and TMs take this course,
they will be better able to prepare higher quality SOWs requiring fewer revisions and, therefore, less
time to finalize.

Finally, although not specifically related to the timeliness of TCSB contract awards, we determined that
21 of 69 TCSB OMs and TMs had not taken the required OM Refresher Training course. The APM,
Chapter 7.B.1.f, Training Requirements, states that the 1-day OM Refresher Training course is
mandatory every 3 years for all FDIC employees serving as an OM or TM. To better ensure consistent
and quality contract oversight, OMs and TMs need to take the course as required.

Recommendations

The Associate Director, TCSB, should:

(1) Require TCSB Oversight Managers and Technical Monitors who are expected to prepare a
    statement of work to take the 1-day FDIC Statement of Work Preparation training course.

(2) Ensure that all Oversight Managers and Technical Monitors who have not taken the Oversight
    Manager Refresher Training Course within the 3-year period take the course.




                                                   6

ACSB NEEDS TO ENSURE THAT DATES IN THE PAL SYSTEM ARE MORE
ACCURATE TO FACILITATE BETTER TRACKING OF CONTRACTING MILESTONES

ACSB personnel did not consistently use the correct dates for entering key contract milestone dates into
the PAL system. Specifically, for two of the six contracts we reviewed, contracting personnel did not
enter the correct dates for “date completed package received,” which refers to the date a completed RP
was received from TCSB. In addition, for four of the six contracts, contracting personnel did not use the
correct dates for “date purchase order signed.” Because ACSB uses PAL to track and manage the
status of requirements packages, information in PAL needs to be accurate, complete, and current. The
effect of the errors increased the number of days to award a contract as reflected in PAL by between 1
and 37 days.

PAL is a multi-user local area network based system used at each FDIC office to track the processing
of RPs through the FDIC’s acquisition section. PAL is used to record the procurement requisition
number, program office point of contact, dates for receipt of a completed requisition package and
contract award, and Acquisition Section Contracting Officer.

The PAL User Manual defines a completed RP as a completed procurement request that includes
appropriate expenditure authority (procurement requisition and expenditure case, if applicable), SOW,
price estimate, suggested vendor sources, technical proposal requirements, and technical evaluation
criteria, if applicable. In addition, the PAL User Manual defines a completed contract award as the
date the contract or purchase order is awarded. ACSB personnel stated that this is the date that the
Contracting Officer executes the contract.

For two of six contracts reviewed, the completed RP received date was not accurate. In one instance,
PAL indicated February 14, 2000 as the date a completed package was received by ACSB.
However, based on our review of the contract file, the OM sent a revised SOW to the contract
specialist on January 18, 2000. The contract specialist subsequently issued the RFP on January 21,
2000. In order to have issued the RFP on January 21, 2000 the contract specialist would have had a
completed RP prior to that date, which we believe was the January 18, 2000 date indicated in the
OM’s e-mail.

In the other instance, the contract specialist received a completed RP on January 19, 2000 rather than
the February 18, 2000 date indicated in PAL. Based on our review of the contract file, we determined
that the OM sent an e-mail to the contract specialist on January 19, 2000 with all the attachments for
the completed RP. In addition, a subsequent e-mail from the contract specialist to the OM stated that
the contract would be awarded within 120 days from January 19, 2000, thereby indicating that a
completed RP was accepted as of that date.

In addition to the incorrect completed package received dates, we also determined that four of the
six contracts had incorrect PAL dates for the date the purchase order was signed. For these four
contracts, the contract specialists input to PAL dates that were 1 day, 11 days, 13 days, and 37 days
earlier than the actual contract execution dates. As a result of using incorrect dates for both the




                                                   7

“date completed package received” and “date purchase order signed,” the actual number of days to
award the affected contracts increased between 1 day and 37 days.

In most instances, we attributed the incorrect dates for both the completed package received date and
purchase order signed date to human errors by the contract specialists. However, in one instance, the
contract specialist incorrectly used the effective date of the purchase order, which was 37 days earlier
than the execution date due to an exigency requiring the contractor to begin work before final execution
of the contract.

The Assistant Director, Acquisition Section, stated that ACSB is developing an electronic commerce
strategy for the acquisition function that will eventually lead to the replacement of the PAL system. The
approved strategy will be implemented over the next 2 years, contingent upon funding approval. The
information retained in the PAL system and other information on procurement milestones for all phases
of the procurement process will be incorporated into the electronic commerce design. Therefore, the
Assistant Director did not believe PAL should have extensive input controls and verification procedures.

We agree that it may not be appropriate at this time to implement PAL input controls and verification
procedures because PAL is expected to be replaced and our audit was limited to the six TCSB
contracts and, therefore, the errors we identified may not be indicative of a pervasive problem.
Nonetheless, we believe that for PAL to be an effective tracking and management system, the dates
input to the system need to be correct. For example, three of the six contracts that met ACSB’s 120-
day performance goal based on information in PAL did not meet the goal when actual dates were used.
 Therefore, we believe that contracting officers should be reminded of their responsibility as outlined in
the APM, Chapter 5.C.2, Procurement Action Log System, to ensure that all information contained in
PAL stays current, complete, and accurate.

Finally, although not related to PAL, we determined that the Contract Milestone Schedule was not fully
completed or included in the contract file for five of the six contracts. In one instance, the schedule was
not included in the contract file. In four instances, the schedules did not have the actual or projected
dates or proper signatures. The APM, Chapters 4.H.4 and 6.B.5, Contracting Milestone Schedule,
requires that ACSB and the program office jointly prepare the Contract Milestone Schedule for
contracts over $100,000. The schedule identifies significant pre-award contract events and includes
projected completion dates to monitor the progress of the contracting process. By not preparing these
schedules, proper notice is not provided to parties of the anticipated completion dates of all significant
pre-award contract events.

Recommendations

The Assistant Director, Acquisition Section, should:

(3) Reiterate to all Contracting Officers that dates input to PAL need to be accurate, complete, and
    current in accordance with the APM. In addition, Contracting Officers should be reminded of the
    definition of a completed contract award as stated in the PAL User Manual.




                                                     8

(4) Reiterate to all Contracting Officers and Contract Specialists that the Contract Milestone Schedules
    need to be fully completed and included in the contract files for all contracts over $100,000.


OTHER OPPORTUNITIES FOR IMPROVEMENT

We concluded that the six TCSB training contracts we reviewed met customers’ needs. Nonetheless,
we met with officials from other government agencies to identify contracting practices and training
services that the FDIC should consider to further improve the timeliness of TCSB contract awards and
the delivery of training services to customers. Specifically, we met with officials from DOT, OPM, and
GSA.

With regard to DOT, we determined that DOT utilizes a Transportation Virtual University (TVU) to
provide professional, academic, technical, and organizational development training to DOT and other
government agencies and industry partners in both online and instructor-led formats. The goal of TVU
is to train employees from their desktops and not take employees out of the field and put them in a
centralized traditional classroom. TVU makes effective use of technology to improve training
opportunities for federal government employees. TVU currently has over 800 released courses
available in the following areas: (1) professional effectiveness, (2) business expertise, and
(3) computer end users and administrative and IT professionals. According to DOT, Web-based
training reduces costs and provides performance improvement.

TCSB officials told us that they have been actively pursuing many means of alternative training delivery.
For example, the largest effort to date has been the development of 17 interactive computer-based
courses for the DRR curriculum. In addition, the Division of Compliance and Consumer Affairs (DCA)
requested that TCSB assist the division in developing a curriculum that would no longer rely on
classroom-based instruction provided by an outside vendor. With assistance from DCA, TCSB has
proposed replacing most classroom-based DCA courses with a variety of alternative training delivery
methods including Web-based and self-study courses. Under the Financial Analysis Program, TCSB
also offers seven courses that are either paper-based self-study or CD-ROM based computer
instruction.

The March 1, 2001 report on the joint OCRE and OICM study of training and personnel administrative
services suggested that TCSB consider using DRR as a case study to determine whether computer-
based training could be utilized to deliver training more efficiently to other divisions, particularly to DOS
and DCA. In responding to the study, a TCSB management official acknowledged that computer-
based training could result in significant cost savings, particularly when travel expenses are considered.

To further build on the work of both TCSB and the joint OCRE and OICM study, we suggest that
TCSB consider pursuing use of the Web-based DOT TVU program. TCSB personnel told us that they
have already had some discussions with DOT about the possibility of DOT providing training courses to
the FDIC.

In addition, OPM provides government agencies with another contracting vehicle for satisfying training
needs. Currently, OPM has 15 training vendors that have been pre-qualified for use by other agencies
using a basic ordering agreement (BOA). OPM is currently soliciting additional vendors for its BOA
                                                      9

and expects to have 20 to 30 vendors available in 2002. Similarly, GSA pre-qualifies training vendors
for use by both GSA and other government agencies. Both OPM and GSA personnel indicated that
pre-qualifying training vendors reduces the amount of time required to award training contracts because
the vendors’ capabilities, performance, and costs have been pre-approved. Accordingly, to further
enhance the efficiency of procuring training and consulting services, we suggest the FDIC consider
establishing a BOA for training vendors.


CORPORATION COMMENTS AND OIG EVALUATION

On June 20, 2001, the Director, DOA, provided a written response to the recommendations in the draft
report. DOA’s response is presented in Appendix I of this report. DOA partially agreed with
recommendation 1 and fully agreed with recommendations 2 through 4. With respect to
recommendation 2, the Director, DOA, stated that TCSB identified the OMs and TMs who have not
taken the Oversight Manager Refresher Training Course within the past 3-year period and instructed
them to enroll in the course. In a June 25, 2001 e-mail, DOA stated that TCSB will monitor the training
to ensure that the OMs and TMs attend the course. For recommendation 3, DOA agreed that the
information in PAL should be accurate, complete, and current and that Contracting Officers would be
reminded of the definition of a completed contract award. For recommendation 4, DOA agreed to send
an e-mail to appropriate staff re-emphasizing that all Contract Milestone Schedules need to be fully
complete and included in the contract files for all contracts over $100,000. In a June 29, 2001 e-mail,
DOA indicated that the Assistant Director, Acquisition Section, sent an e-mail addressing the corrective
actions outlined in recommendations 3 and 4.

With regard to our suggestions, the Director, DOA, stated that DOA is continually exploring the use of
technology to improve the efficiency and effectiveness of FDIC’s training programs. However, DOA
believes more defined research or studies of alternative sources or providers of Web-based training need to
be considered before exploring the OIG’s suggestion. Further, DOA is currently researching the most
effective contracting method (including the possible use of a BOA) for supplying contracting needs for
training design and development.

A summary of the Director’s response to recommendation 1 and our analysis follows. In addition,
Appendix II presents management’s proposed actions on our recommendations and shows that there is
a management decision for each recommendation in this report.

Require TCSB Oversight Managers and Technical Monitors who are expected to prepare a
statement of work to take the 1-day FDIC Statement of Work Preparation training course
(recommendation 1): The Director, DOA partially agreed with this recommendation. DOA does not
agree that all TCSB OMs and TMs be required to take the 1-day FDIC SOW Preparation training
course. The Director stated that implementing such a recommendation would not be cost effective or
essential given the fact that many of the TCSB OMs and TMs are responsible for preparing SOWs for
non-complex procurements. These SOWs need only contain a short concise

description of the requirements that are attached to the requisition. In general, these requisitions are
service contracts awarded through the OPM and the GSA.

Further, the Director, DOA, stated that in June 2000, TCSB formed a Contract Team with the goal of
                                                     10

developing uniform SOW language for the various TCSB-contracted training needs. As a result,
TCSB, with the support of the DOA Acquisition Section, developed SOW templates for training
analysis, design, development, delivery, and evaluation. DOA believes the templates will help eliminate
or minimize potential delays that may occur in the SOW development process.

The Director, DOA, further stated that there are times when TCSB OMs and TMs are required to
follow complex procurement procedures. For these types of procurements, TCSB staff develop
detailed and complete SOWs that convey all aspects of the requirements and clearly delineate what is to
be procured. DOA believes that all TCSB OMs and TMs that prepare these types of SOWs should
be required to take the 1-day training course. TCSB has identified these OMs and TMs and instructed
them to enroll in the training course. In a June 25, 2001 e-mail, DOA stated that TCSB will monitor the
training to ensure that the OMs and TMs attend the course.

We agree with DOA that OMs and TMs that prepare non-complex procurements should not be
required to take the 1-day FDIC SOW Preparation training course. Our review included only
contracts that were complex procurements that took the longest period of time to award. The intent of
our recommendation was to require the 1-day training course only for those OMs and TMs that
prepared a SOW for complex procurements. The action taken by DOA is responsive to our
recommendation and meets the requirements of a management decision.




                                                  11

                                                                                               APPENDIX I

         Federal Deposit Insurance Corporation
         550 17th Street, NW, Washington, DC 20429                                     Division of Administration



                                                                June 15, 2001

MEMORANDUM TO:	 David H. Loewenstein
                Assistant Inspector General

FROM:                        Arleas Upton Kea [Electronically produced version; original signed by
                                  Arlease Upton Kea]
                             Director, Division of Administration

SUBJECT:                     Management Response to Draft Report: TCSB Contracts for Training
                             and Consulting Services Met Customer Needs, but FDIC Can Improve
                             the Timeliness and Tracking of Selected TCSB Contract Awards and
                             Consider Alternative Contracting Methodologies

The Division of Administration (DOA) has completed its review of the subject Office of Inspector
General (OIG) draft report. We appreciate the review performed by the OIG, and its conclusion that
the DOA, Training and Consulting Services Branch (TCSB) met the clients needs for the contracts
reviewed. In the report the OIG made four recommendations to DOA related to two audit findings
and identified other potential opportunities for improvement in the corporate training area.

This response summarizes our planned corrective actions with respect to the audit recommendations
made by the OIG, and provides expected completion dates and the documentation that will confirm
completion. We have also provided comments on the suggested improvements identified by the OIG.

Management Decision:

Recommendation # 1: The Associate Director, TCSB, should require TCSB Oversight Managers
(OMs) and Technical Monitors (TMS) who are expected to prepare a statement of work to take the
one-day FDIC Statement of Work Preparation training course.

Management Response # 1: DOA management agrees with this recommendation in part. We do
not agree that all TCSB OMs and TMs be required to take the one-day FDIC Statement of Work
(SOW) Preparation Training Course. Implementing such a recommendation would not be cost effective
or essential given the fact that many of the TCSB OMs and TMs are responsible for preparing SOWs
for non-complex procurements. These non-complex SOWs are typically Procurement Requisitions
using the simplified procurement procedures as outlined in Chapter 4 of the APM. These SOWs need
only contain a short concise description of the requirements that are attached to the requisition. In
general, these requisitions are service contracts awarded through the U.S. Office of Personnel
Management and the General Services Administration.




                                                     12

Further, in June 2000, TCSB formed a Contract Team with the goal of developing uniform SOW
language for the various TCSB contracted training needs. As a result, TCSB, with the support of the
DOA Acquisition Section, have developed SOW templates for training analysis, design, development,
delivery, and evaluation. We believe the templates help eliminate or minimize potential delays that may
occur in the SOW development process.

There are times when TCSB OMs and TMs are required to follow complex procurement procedures.
For these types of procurements, TCSB staffs develop detailed and complete SOWs that convey all
aspects of the requirements and clearly delineate what is to be procured. We do believe that all TCSB
OMs and TMs that prepare these types of SOWs be required to take the one-day training course.
TCSB has identified these OMs and TMs, and has instructed them to enroll in the training course.

Recommendation # 2: The Associate Director, TCSB should ensure that all Oversight Managers and
Technical Monitors who have not taken the Oversight Manager Refresher Training Course within the 3-
year period take the course.

Management Response # 2: DOA management agrees with this recommendation. TCSB identified
those OMs and TMs who have not taken the Oversight Manager Refresher Training Course within the
past three-year period and has instructed them to enroll in the course.

Recommendation # 3: The Assistant Director, Acquisition Section, should reiterate to all Contracting
Officers that dates input to PAL need to be accurate, complete, and current in accordance with the
APM. In addition, Contracting Officers should be reminded of the definition of a completed contract
award as stated in the PAL User Manual.

Management Response # 3: DOA management concurs with this recommendation. We agree that
the information input to PAL should be accurate, complete, and current in accordance with the APM.
As a point of clarification, the definition of a completed contract award is in the APM not the PAL User
Manual. The Assistant Director, Acquisition Section, will send an email to all contracting officers
reminding them that dates input to PAL be in accordance with the APM. The email will also
reemphasize the definition of a completed contract award. Email correspondence from the Assistant
Director, Acquisition Section, will be issued to all Contracting Officers by June 29, 2001.

Recommendation # 4: The Assistant Director, Acquisition Section, should reiterate to all Contracting
Officers and Contract Specialists that the Contract Milestone Schedules need to be fully completed and
included in the contract files for all contracts over $100,000.

Management Response # 4: DOA management concurs with the recommendation. The Assistant
Director, Acquisition Section, will send an email to all Contracting Officers and Contract Specialists
reemphasizing that the Contract Milestone Schedules need to be fully complete and in the contract file
for all contracts over $100,000 as required in APM Section 4.h.4. Email correspondence from the
Assistant Director, Acquisition Section, will be issued by June 29, 2001.

Management Comments - "Other Opportunities for Improvement"

We appreciate the suggestions offered by the OIG. The OIG indicated that they met with other
                                                   13

government agencies (DOT, OPM, and GSA) and identified contracting practices and training services
that the FDIC should consider to further improve the timeliness of TCSB contract awards and the
delivery of training services to customers. We have reviewed the opportunities for improvement
identified by the OIG and offer the following comments.

With respect to the OIG suggestion that the TCSB pursue the use of the Web-based DOT
Transportation Virtual University (TVU), we believe that the OIG's idea is premature since the
suggestion is not supported by defined research or studies of alternative sources or providers of web-
based training. Furthermore, this proposed option is contrary to the way TCSB conducts its business.
TCSB uses a structured methodology to confirm the technical feasibility of implementing computer
platform based training, to gather feedback on the use of online learning within the FDIC culture, and to
evaluate the course content.

As an organization, TCSB is continually exploring the use of technology to improve the efficiency and
effectiveness of the corporate training programs. In fact, TCSB is the architect for the Corporate
Learning Strategy initiative that encompasses the use of innovative enabling technologies to optimize the
Corporation's ability to meet and continuously support employee developmental needs. The TCSB
staffs are extremely proficient, experienced, and knowledgeable in the area of technology based training,
and use a structure evaluative process to determine the appropriate direction for technology based
training. TCSB has successfully developed online training curriculums and continues to pilot various
technology based training venues to include the DOT TVU. For example, TCSB developed the 17
interactive computer-based curriculums for the Division of Resolutions and Receiverships and is in the
process of piloting an online program called the Ninth House Network (NHN). NHN delivers
personalized, interactive business skills training to the desktop.

Concerning the OIG's suggestion to establish a Basic Ordering Agreement for training vendors, TCSB
was already exploring this option before the OIG audit. The TCSB Training and Technology Section, in
conjunction with the Acquisition Services Section, are currently conducting research to determine the
most effective contracting method for supplying contracting needs for training design and development.

If you have any questions regarding the response, our point of contact for this matter is Andrew Nickle,
Audit Liaison for the Division of Administration. Mr. Nickle can be reached at (202) 942-3190.


cc: Starr Ramieh
    Michael Rubino
    Vijay Deshpande




                                                   14

                                                                                                                                                                                APPENDIX II
                                                       MANAGEMENT RESPONSES TO RECOMMENDATIONS
The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its semiannual reports to the Congress. To consider FDIC’s
responses as management decisions in accordance with the act and related guidance, several conditions are necessary. First, the response must describe for each recommendation
     � the specific corrective actions already taken, if applicable;
     � corrective actions to be taken together with the expected completion dates for their implementation; and
     � documentation that will confirm completion of corrective actions.
If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any disagreement. In the case of questioned costs,
the amount FDIC plans to disallow must be included in management’s response. If management does not agree that a recommendation should be implemented, it must describe why the
recommendation is not considered valid. Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming
completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The information for management decisions is based on
management’s written response to our report and any other discussions as appropriate.
                                                                                                                                         Documentation
                                                                                                                         Expected          That Will                       Management
  Rec.                                                                                                                 Completion         Confirm Final       Monetary     Decision: Yes
Number                                   Corrective Action: Taken or Planned/Status                                       Date               Action            Benefits         or No
            The Director, Division of Administration (DOA), stated that the Training and Consulting Services Branch
            (TCSB) Oversight Managers (OM) and Technical Monitors (TM) that prepare complex procurements                                   Documentation
            will be required to take the 1-day training course. Those OMs and TMs that prepare non-complex                                identifying OMs
   1        procurements will not be required to take the training course. The Director also stated that TCSB has        Completed        and TMs that are          N/A              Yes
            identified OMs and TMs that prepare complex procurement transactions and instructed them to enroll in                        required to take the
            the training course. In a June 25, 2001 e-mail, DOA stated that TCSB will monitor the training to ensure                       training course.
            that the OMs and TMs attend the course.
            The Director, DOA, stated that TCSB has identified OMs and TMs who have not taken the Oversight                                 Documentation
            Manager Refresher Training Course within the past 3-year period and has instructed them to enroll in the                       identifying OMs
   2                                                                                                                     Completed                                  N/A              Yes
            course. In a June 25, 2001 e-mail, DOA stated that TCSB will monitor the training to ensure that the                          and TMs that need
            OMs and TMs attend the course.                                                                                                the training course.
            The Director, DOA, stated that DOA agrees that the information input into PAL should be accurate,
            complete, and current in accordance with the Acquisition Policy Manual (APM). On June 29, 2001 DOA
                                                                                                                                             E-mail to all
   3        indicated that the Assistant Director, Acquisition Section, sent an e-mail to all contracting officers       Completed                                  N/A              Yes
                                                                                                                                         contracting officers.
            reminding them that dates input into PAL should be in accordance with the APM. The e-mail also re-
            emphasized the definition of a completed contract award.
            The Director, DOA, stated that the Assistant Director, Acquisition Section, would send an e-mail to all
            Contract Specialists re-emphasizing that all Contract Milestone Schedules need to be fully complete and in                      E-mail to all
   4                                                                                                                     Completed                                  N/A              Yes
            the contract file for all contracts over $100,000. On June 29, 2001 DOA indicated that the Assistant                         contract specialists.
            Director, Acquisition Section, sent the e-mail to all contract specialists.




                                                                                                15

